<html>
<title> - H.R. 38 AND H.R. 1925</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                         H.R. 38 AND H.R. 1925
=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION
                               __________

                            October 4, 2001
                               __________

                           Serial No. 107-64
                               __________

           Printed for the use of the Committee on Resources





 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov






                     U.S. GOVERNMENT PRINTING OFFICE
75-529                       WASHINGTON : 2002
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
 Joel Hefley, Colorado                   Samoa
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                James P. McGovern, Massachusetts
Chris Cannon, Utah                   Anibal Acevedo-Vila, Puerto Rico
Bob Schaffer, Colorado               Hilda L. Solis, California
Jim Gibbons, Nevada                  Betty McCollum, Minnesota
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado










                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on October 4, 2001..................................     1

Statement of Members:
    Bereuter, Hon. Doug, a Representative in Congress from the 
      State of Nebraska..........................................     2
        Prepared statement on H.R. 38............................     4
    Edwards, Hon. Chet, a Representative in Congress from the 
      State of Texas.............................................     5
        Prepared statement on H.R. 1925..........................     5
        Haynes, Gary, Professor and Chair, Department of 
          Anthropology, University of Nevada, Letter submitted 
          for the record on H.R. 1925............................     7
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement on H.R. 38 and H.R. 1925..............     2

Statement of Witnesses:
    Maurstad, Hon. David I., Former Lieutenant Governor, State of 
      Nebraska, Lincoln, Nebraska................................    12
        Prepared statement on H.R. 38............................    14
    Riedesel, Laureen, President, Friends of Homestead National 
      Monument of America, Inc., Beatrice, Nebraska..............    17
        Prepared statement on H.R. 38............................    19
    Smith, Dr. Calvin B., Chairman, Department of Museum Studies, 
      and Director, Mayborn Museum Complex, Baylor University, 
      Waco, Texas................................................    28
        Prepared statement on H.R. 1925..........................    30
    Soukup, Dr. Michael, Associate Director, Natural Resource 
      Stewardship and Science, National Park Service, U.S. 
      Department of the Interior, Washington, DC.................     8
        Prepared statement on H.R. 38............................    10
        Prepared statement on H.R. 1925..........................    11


 LEGISLATIVE HEARING ON H.R. 38, TO PROVIDE FOR ADDITIONAL LANDS TO BE 
 INCLUDED WITHIN THE BOUNDARIES OF THE HOMESTEAD NATIONAL MONUMENT OF 
    AMERICA IN THE STATE OF NEBRASKA; AND H.R. 1925, TO DIRECT THE 
 SECRETARY OF THE INTERIOR TO STUDY THE SUITABILITY AND FEASIBILITY OF 
DESIGNATING THE WACO MAMMOTH SITE AREA IN WACO, TEXAS, AS A UNIT OF THE 
                         NATIONAL PARK SYSTEM.

                              ----------                              


                       Thursday, October 4, 2001

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:04 a.m., in 
Room 1334, Longworth House Office Building, Hon. George 
Radanovich, [Chairman of the Subcommittee] presiding.

STATEMENT OF THE HONORABLE GEORGE RADANOVICH, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Good morning, and welcome to today's 
hearing of the National Parks Subcommittee of the Committee on 
Resources. The Subcommittee will come to order, and this 
morning the Subcommittee on National Parks, Recreation, and 
Public Lands will hear testimony on two bills: H.R. 38 and H.R. 
1925.
    The first bill, H.R. 38, as introduced by Congressman 
Bereuter, provides for additional lands to be included within 
the boundaries of the Homestead National Monument of America in 
the State of Nebraska. The additional land will allow the Park 
Service to build a modern visitors center to enhance the 
educational experience and better protect the 17,000 artifacts 
stored at the monument.
    The other bill is H.R. 1925, introduced by Congressman Chet 
Edwards. It directs the Secretary of the Interior to study the 
suitability and feasibility of designing the Waco Mammoth Site 
Area near Waco, Texas, as a unit of the National Park System. 
The Waco Mammoth Site Area is an important site for scientific 
study and has attracted international attention.
    Mr. Radanovich. I want to thank Congressmen Edwards and 
Bereuter for introducing these bills and look forward to 
today's testimony.
    [The prepared statement of Mr. Radanovich follows:]

Statement of the Honorable George P. Radanovich, Chairman, Subcommittee 
             on National Parks, Recreation and Public Lands

    Good morning and welcome to the hearing today. The Subcommittee 
will come to order. This morning, the Subcommittee on National Parks, 
Recreation, and Public Lands will hear testimony on two bills - H.R. 38 
and H.R. 1925.
    The first bill, H.R. 38, introduced by Congressman Doug Bereuter, 
provides for additional lands to be included within the boundaries of 
the Homestead National Monument of America in the State of Nebraska. 
The additional land will allow the Park Service to build a modern 
visitor center to enhance the educational experience and better protect 
the 17,000 artifacts stored at the Monument.
    The other bill, H.R. 1925, introduced by Congressman Chet Edwards, 
directs the Secretary of the Interior to study the suitability and 
feasibility of designating the Waco Mammoth Site Area in Waco, Texas, 
as a unit of the National Park System. The Waco Mammoth Site Area is an 
important site for scientific study and has attracted international 
attention.
    I want to thank Congressmen Edwards and Congressman Bereuter for 
introducing these bills and look forward to today's testimony. At this 
time, I would like to ask unanimous consent that Congressman Edwards 
and Congressman Bereuter be permitted to sit on the dias following 
their statements. Without objection [PAUSE], so ordered.
    I would like to thank all of our witnesses for being here today to 
testify on these bills and now turn the time to the Ranking Member, Ms. 
Christensen for an opening statement.
                                 ______
                                 
    Mr. Radanovich. At this time I would like to ask unanimous 
consent that Congressman Edwards and Congressman Bereuter be 
permitted to sit at the dais following their statements. 
Obviously, no objection, so ordered.
    And I would like to thank all of our witnesses for being 
here today to testify on these bills, and I would want to then, 
I think, go ahead with the opening statements.
    I just wanted to mention to the audience we have got a lot 
on the agenda in Washington today with the farm bill on the 
floor and quite a few other things. So I am sure that there 
will be members coming in and out, and our ranking member, Mrs. 
Christensen, couldn't be here because of a death in the family, 
and our prayers and thoughts are with her at this time.
    So, with that, I would like to introduce Congressman Doug 
Bereuter. Doug, welcome, and have at it.

   STATEMENT OF THE HON. DOUG BEREUTER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEBRASKA

    Mr. Bereuter. Thank you very much, Mr. Chairman, and 
congratulations on your Chairmanship of this Subcommittee. As I 
mentioned to you, I spent my first 4 years on this Subcommittee 
and enjoyed that experience. In fact, I will have to go to the 
floor for the ag bills shortly myself since I have four 
amendments they want to take up.
    I am pleased to testify on behalf of H.R. 38, which I 
introduced this year. In the past Congress, I introduced the 
same legislation, and as a matter of fact, it is not in my 
written testimony, but $400,000 in appropriation was received 
to implement this boundary change in the last Congress. And so 
we have been waiting anxiously to see the expansion of the 
Homestead National Monument by approximately 38 acres.
    I am very pleased, too, that David Maurstad, the former 
mayor of Beatrice, the closest community to the Homestead 
National Monument, and the former State senator from the area 
and the man who served as our Lieutenant Governor until last 
week when he resigned to become FEMA Director for the Rocky 
Mountain region, is here to testify today, as well as Laureen 
Riedesel, the president of the Friends of Homestead and the 
chief librarian for the city of Beatrice, who is here to speak 
and will follow me.
    The legislation is rather a straightforward bill. It is 
also, I think, noncontroversial. The bill would simply adjust 
the boundaries of the Homestead National Monument to permit the 
acquisition of four small parcels to the Homestead. It is 
consistent with the General Management Plan, which calls for a 
minor boundary expansion exactly in these areas. The 
acquisition outside the existing boundaries as recommended by 
the General Management Plan would allow a new Homestead 
Heritage Center to be constructed outside the floodplain. The 
current one is within the 100-year floodplain, and they have 
not been able to expand it for some period of time. They have 
not been able to display so many of the tremendous artifacts 
that they have.
    So when we are able to purchase the additional land, this 
would enable us then to come to the Congress at a later date 
and seek funds for a new center to replace the existing one.
    As the bill makes clear, the land for the Heritage Center 
would be acquired on a willing-seller basis. It is my 
understanding that all of the individuals--and the State of 
Nebraska, which owns part of it, a small part--that would be 
involved in the boundary adjustment have expressed a 
willingness to sell for a negotiated price.
    The Homestead National Monument of America commemorates the 
lives and the accomplishments of all the pioneers and the 
changes to the land and the people as a result of the Homestead 
Act of 1862. This is said to be the first or perhaps one of the 
first two or three homesteads filed that first day that the 
Homestead Act was implemented.
    I think it is a truly unique treasure among the National 
Park System jewels. The authorization legislation makes it 
clear that Homestead was intended to have a special place among 
the Park Service units, and I have given you some details from 
the original document that established it here.
    Clearly, I think, Mr. Chairman, this authorizing 
legislation will help us meet some lofty goals, but I believe 
that H.R. 38 is a small step but necessary step so that we can 
use the appropriation received by the last Congress to expand 
by a total of about 38.5 acres.
    I would be happy to answer any questions you might have, 
and I know the two people accompanying me will be anxious to 
provide any details that you might like as well.
    Thank you.
    [The prepared statement of Mr. Bereuter follows:]

Statement of the Honorable Doug Bereuter, a Representative in Congress 
                       from the State of Nebraska

    Chairman Hefley, Delegate Christensen, and members of the 
Subcommittee: I would like to begin by thanking you for the opportunity 
to present testimony regarding H.R. 38, a bill I introduced on January 
3, 2001. During the past 106th Congress, I introduced the same 
legislation.
    I am pleased that David Maurstad, the former mayor of Beatrice (the 
closest community to the Homestead National Monument), the former state 
senator for the area, and the man who served as Lieutenant Governor of 
Nebraska until this past week when he resigned to become the FEMA 
director of the Rocky Mountain region will testify today. Also, I'm 
very pleased to have Laureen Riedesel, President of the Friends of 
Homestead, here to speak in support of H.R. 38.
    This legislation, the Homestead National Monument of America 
Additions Act, is a straightforward bill. It is also non-controversial. 
The bill would simply adjust the boundaries of Homestead National 
Monument of America and allow a small amount of additional land to be 
included within its boundaries.
    The bill reflects the recommendations in the recently completed 
General Management Plan (GMP) calling for a minor boundary expansion 
for Homestead National Monument. Unfortunately, the current visitor 
center is located in a 100-year flood plain. The acquisition of land 
outside the existing boundaries as recommended in the GMP would allow a 
new ``Homestead Heritage Center'' to be constructed outside the 
floodplain. This would offer greater protection to the Monument's 
collections, interpretive exhibits, public research facilities, and 
administrative offices.
    As the bill makes clear, the land for the Heritage Center is to be 
acquired on a willing-seller basis. It is my understanding that all of 
the individuals who would be involved in the boundary adjustment have 
expressed a willingness to sell for a negotiated price.
    Homestead National Monument of America commemorates the lives and 
accomplishments of all pioneers and the changes to the land and the 
people as a result of the Homestead Act of 1862, which is recognized as 
one of the most important laws in U.S. history. This Monument was 
authorized by legislation enacted in 1936. The fiscal year 96 Interior 
Appropriations Act directed the National Park Service to complete a 
General Management Plan to begin planning for improvements at 
Homestead. The General Management Plan, which was completed last year, 
made recommendations for improvements that are needed to help ensure 
that Homestead is able to reach its full potential as a place where 
Americans can more effectively appreciate the Homestead Act and its 
effects upon the nation.
    Homestead National Monument of America is truly a unique treasure 
among the National Park Service jewels. The authorizing legislation 
makes it clear that Homestead was intended to have a special place 
among Park Service units. According to the original legislation:
        ``It shall be the duty of the Secretary of the Interior to lay 
        out said land in a suitable and enduring manner so that the 
        same may be maintained as an appropriate monument to retain for 
        posterity a proper memorial emblematic of the hardships and the 
        pioneer life through which the early settlers passed in the 
        settlement, cultivation, and civilization of the great West. It 
        shall be his duty to erect suitable buildings to be used as a 
        museum in which shall be preserved literature applying to such 
        settlement and agricultural implements used in bringing the 
        western plains to its present state of high civilization, and 
        to use the said tract of land for such other objects and 
        purposes as in his judgment may perpetuate the history of this 
        country mainly developed by the homestead law.''
    Clearly, this authorizing legislation sets some lofty goals. I 
believe that H.R. 38 would help the Monument achieve the potential 
which was first described in its authorizing legislation.
                                 ______
                                 
    Mr. Radanovich. Thanks, Doug. And I know that this is well 
thought out, and all the people involved seem like they support 
it. So I am looking forward to the testimony of the witnesses, 
and I certainly understand your need to leave if you have to. 
But it sounds like a good project.
    Mr. Bereuter. Thank you.
    Mr. Radanovich. Okay. Good morning, Mr. Edwards, and I know 
you are here to provide an opening statement on--what is it?--
H.R. 1925.
    Mr. Edwards. That is correct, Mr. Chairman.
    Mr. Radanovich. Feel free to speak about your project.

    STATEMENT OF THE HON. CHET EDWARDS, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Edwards. Thank you, Mr. Chairman. I will be very brief. 
In fact, I will probably join with Mr. Bereuter in saying that 
we would ask our friends and constituents and others who are 
going to testify to forego their testimony if you would like to 
just pass this bill by unanimous consent of the Committee this 
morning.
    [Laughter.]
    Mr. Radanovich. You know, I think I could right now.
    Mr. Edwards. Hearing no objection.
    Thank you so much. I will be brief because of the others 
testifying. But basically we are simply asking that the 
Secretary of Interior be directed to do a study to determine 
whether the Waco Mammoth Site should be a part of the National 
Park System. We don't draw any conclusions today. We simply ask 
the Committee's consideration of having the Secretary actually 
evaluate that and report back to the Committee and Congress 
over the next 6 months.
    It is obvious why someone from Waco, Texas, might support 
this idea, but let me just briefly quote, and then I will 
finish. I would like to quote from Dr. Gary Haynes, who is the 
Chairman of the Department of anthropology at the University of 
Nevada. He is an anthropologist and archaeologist who has 
worked at the Smithsonian Institution as well as at Catholic 
University, George Washington University, as well as his 
present university in Nevada. He says, ``In my view, the Waco 
Mammoth Site is worth preserving with the most vigor and 
support the United States Government can provide. It is a part 
of America's rich heritage from the far past, when a much 
diverse animal community populated the continent.''
    Mr. Chairman, it is my understanding that this is the 
largest single site in the country where a herd of mammoths 
died at the same event 28,000 years ago, even the remains of 
one female mother mammoth who was trying to push one of the 
babies up above the mudslide. It is a spectacular site, and I 
just appreciate your consideration of this bill and that of the 
Committee.
    [The prepared statement of Mr. Edwards follows:]

 Statement of the Honorable Chet Edwards, a Representative in Congress 
                        from the State of Texas

    Chairman Radanovich, Ranking Member Christensen, and Members of the 
Subcommittee:
    Thank you for allowing me to testify today on the significance of 
the Waco Mammoth Site, located in my district, and the need for this 
site to be added as a unit of the National Park System. I appreciate 
the subcommittee's interest in this very important issue and for giving 
it the consideration of this hearing.
    The Waco Mammoth Site is the largest known concentration of 
prehistoric elephants dying from the same event in the world. That is 
what makes it a significant national site.
    The Site is found within the city limits of Waco, Texas, where the 
Brazos and Bosque rivers merge. First discovered in 1978, this site has 
been excavated by numerous Baylor University researchers. Twenty-three 
Columbian mammoths have been unearthed so far.
    The mammoths were suddenly overcome by a mud flood over 28,000 
years ago, and while not able to move to safety, were able to form a 
protective stance over their young. In fact, the mud engulfed one 45 
year-old female elephant as she tried to lift her young to safety. This 
motherly instinct is the first known recording in history.
    Experts such as Dr. Gary Haynes of the University of Nevada at Reno 
have said that the Waco Mammoth Site is a valuable and unique treasure 
that should not be lost. Dr. Haynes states that the Mammoth site ``is a 
part of America's rich heritage from the far past, when a much more 
diverse animal community populated the continent.''
    The Waco Mammoth Site has the complete backing of the Waco 
community. More specifically, individuals, corporations, foundations, 
and other special interest groups are committed to preserving the 
Mammoth Site, and making it a part of the National Park System. As a 
national park, the Mammoth Site will attract numerous tourists and 
travelers wanting to learn more about this paleontological discovery 
and our early beginnings. The Mammoth Site can also be a valued 
learning tool for school children of various grade levels throughout 
much of Texas.
    I believe that a study will show the value of the Waco Mammoth Site 
and its importance to the scientific community. Thank you for your 
consideration of funding such a study.
                                 ______
                                 
    [A letter attached to Mr. Edwards' statement follows:]
    [GRAPHIC] [TIFF OMITTED] T5529.004
    
    Mr. Radanovich. Thank you, Mr. Edwards. And one of the 
nicest things about being Chairman of this Committee is you 
become familiar with a lot more interesting sites all across 
the country. So I, too, am looking forward to the testimony of 
the witnesses today, and I appreciate both of you coming to the 
Committee to share your views on these bills.
    Mr. Edwards. Thank you very much.
    Mr. Radanovich. Thank you very much.
    Mr. Radanovich. With that, we will call Panel 2, which is 
Dr. Michael Soukup, the Associate Director of National Resource 
Stewardship and Science, National Park Service, the Department 
of Interior, in Washington, D.C., to speak on both issues, both 
bills. And I think that we are going to go ahead and combine 
Panel 2 and Panel 3, and so with that we will call up the 
Honorable David Maurstad, who is Lieutenant Governor of the 
State of Nebraska; Ms. Laureen Riedesel, president of the 
Friends of the Homestead--I heard that pronounced--it looks 
like Beatrice, but it is Beatrice?
    Ms. Riedesel. Beatrice.
    Mr. Radanovich. Beatrice, Nebraska. And ten Dr. Calvin 
Smith, Chairman of Museum Studies and director of the Mayborn 
Museum Complex at Baylor University in Waco, Texas.
    Good morning to everybody and thank you for being here 
today. Mr. Soukup, we will begin with your testimony, and just 
to give you a rundown on the lighting structure here, you will 
see these little boxes in front of you. Green means talk, 
yellow means sum up, and red means don't say another word. I 
just want to make sure that everybody gets their information 
out today, but if you can do it within that 5-minute time 
frame, that would be just terrific. If you need to go on, just 
ask, but, you know, just little guidelines.
    Doctor, welcome and please begin if you would like.

   STATEMENT OF MICHAEL SOUKUP, ASSOCIATE DIRECTOR, NATURAL 
RESOURCE STEWARDSHIP AND SCIENCE, NATIONAL PARK SERVICE, UNITED 
      STATES DEPARTMENT OF THE INTERIOR, WASHINGTON, D.C.

    Mr. Soukup. Mr. Chairman, thank you for the opportunity to 
present our views of the Department on these two bills. I am 
not certain how you want to proceed. Would you like me to do 
both bills at one time?
    Mr. Radanovich. That would not be a problem. Go ahead and 
address both at the same time.
    Mr. Soukup. Okay. Let me summarize our testimony on both 
bills and proceed.
    The Department supports the enactment of H.R. 38. We 
believe it is a very important bill for us. Homestead National 
Monument of America was established in 1936. The language was 
to provide ``...a proper memorial emblematical of the hardships 
and the pioneer life through which the early settlers passed in 
settlement, cultivation, and civilization of the Great 
West...'' If enacted, the bill will add four small but 
important parcels of land to the Monument. The total amount of 
land, in our calculation, is less than 30 acres, and the 
private landowners, as you previously heard, have agreed in 
principle to this proposed legislation, and the State of 
Nebraska has agreed, as well, to donate its land as provided in 
the bill.
    The four parcels to be added are as follows:
    The Graff Property, 15.98 acres adjacent to and overlooking 
the Monument's grounds. Addition of these lands would serve two 
purposes. First, it would ensure protection of the Nation's 
oldest restored prairie. Second, this property, located on 
higher ground, as you previously heard, could be used as an 
alternative location, outside of the floodplain, for the 
Monument's primary cultural resource, the Palmer-Epaid cabin, 
as well as the visitor facility.
    The Pioneer Acres Green parcel consists of approximately 3 
acres of privately owned land. Inclusion of this property in 
the boundary would provide additional protection to park 
resources, and it is owned by a willing seller.
    A segment of State Highway 4 consists of approximately 1.4 
acres of Nebraska State Highway 4, and its addition would 
protect natural and archaeological resources and provide a site 
to support education efforts through interpretive wayside 
exhibits.
    The State Triangle lands would be a parcel containing 
approximately 8.3 acres and is bounded by the Monument on two 
sides and by State Highway 4 on the third side. This property 
is immediately adjacent to the site of the original homestead 
cabin and will allow for maximizing interpretive efforts and 
maintaining the integrity of the Monument's boundaries.
    Mr. Chairman, the Department supports the enactment of H.R. 
38, and we thank you for the opportunity to provide these 
comments.
    This concludes my remarks and I will now refer to my other 
testimony.
    Mr. Radanovich. Why don't you move on to 1925.
    Mr. Soukup. Okay. Thank you, sir.
    H.R. 1925 will require the Secretary of the Interior to 
conduct a study to determine the suitability and feasibility of 
designating the Waco Mammoth Site in Waco, Texas, as a unit of 
the National Park System.
    The Department supports this legislation in concept and 
believes that it is wholly appropriate for the National Park 
System to undertake a study of this nature. However, in light 
of the President's commitment to reducing the backlog of 
deferred maintenance needs within the National Park System, we 
would not anticipate funding or beginning the study until at 
least fiscal year 2003. Funds for this fiscal year have already 
been committed to ongoing and newly authorized studies, and the 
first budget that we could get it into would be the fiscal year 
2003 budget.
    Additionally, our support for this legislation should not 
be interpreted to mean that the Department would necessarily 
support designation of a new area.
    H.R. 1925 calls for the completion of a study of the Waco 
Mammoth Site that determines the suitability and feasibility of 
designating the site as a unit of the National Park System. The 
bill calls for this study to be completed under the guidelines 
in Public Law 91-383 and submission of the study results to 
Congress 30 days after it has been completed.
    As you just heard, the Waco Site is located near the 
confluence of the Brazos and the Bosque rivers in Central 
Texas, not far from the city of Waco. It is the largest known 
concentration of mammoths dying from the same event.
    We recommend some technical amendments to this bill that 
would make it consistent with the requirements for studying new 
areas to be added to the National Park System that are 
specified in Section 303 of the National Park System Omnibus 
Management Act of 1998. That is Public Law 105-391. This public 
law requires studies of new areas to consider whether the area 
under study possesses nationally significant natural or 
cultural resources and represents one of the most important 
examples of a particular resource type in the country, and is a 
suitable and feasible addition to the system.
    To make the terms of this study consistent with those that 
the Park Service uses to study other potential new sites of the 
National Park System, we recommend referring to the study as a 
``special resource study,'' and to specifically state that the 
study should determine the ``national significance, suitability 
and feasibility'' of adding the Waco Mammoth Site Area to the 
National Park System. Also, studies of this type often involve 
consultation with many State and local groups and are difficult 
to complete within the 6-month time frame specified in the 
bill. We suggest that the report to Congress in subsection 1(c) 
be required within 3 fiscal years after the funds are first 
made available, which reflects the standard timing for 
submitting studies of this type.
    Mr. Chairman, this concludes my statement, and I would be 
pleased to answer any questions you might have.
    [The prepared statements of Mr. Soukup follow:]

 Statement of Dr. Michael Soukup, Associate Director, Natural Resource 
Stewardship and Science, National Park Service, U.S. Department of the 
                      Interior, Concerning H.R. 38

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department on H.R. 38. This bill provides for additional lands to 
be included within the boundaries of Homestead National Monument of 
America in the State of Nebraska.
    The Department supports the enactment of H. R. 38. Acquisition of 
these additional lands has been recommended by the Homestead National 
Monument of America's 1999 General Management Plan, and costs to 
administer this boundary modification are expected to be minimal. 
Funding to acquire the privately owned properties was included in the 
Fiscal Year 2001 Interior Appropriations Act, and we anticipate that 
management of the acquired lands can be accomplished with existing park 
resources.
    Homestead National Monument of America (Monument) was established 
in 1936. The Monument's enabling legislation states that the purpose of 
the Monument is to establish ``...a proper memorial emblematical of the 
hardships and the pioneer life through which the early settlers passed 
in settlement, cultivation, and civilization of, the Great West...'' 
The legislation also specifies that the Secretary of the Interior will 
``...erect suitable buildings to be used as a specific museum in which 
shall be preserved literature applying to such settlement and 
agriculture implements used to bring the western plains to its present 
state of high civilization, and to use the said tract of land for such 
other objects and purposes as in his judgment may perpetuate the 
history of this country mainly developed by the homestead law.''
    If enacted, the bill will add four small, but important, parcels of 
land to the Monument. These additions will allow the opportunity for 
greater protection of the Monument's primary cultural resource, will 
protect the Monument from encroaching development, and will provide the 
opportunity for improved visitor and interpretive services. The total 
amount of land to be added is less than 30 acres. The private 
landowners affected have agreed in principle to this proposed 
legislation and the State of Nebraska has agreed, as well, to donate 
its lands as provided for in the bill.
    The four parcels to be added to the Monument and the purposes for 
the addition of each are as follows:
THE GRAFF PROPERTY:
    This privately owned parcel consists of approximately 15.98 acres 
adjacent to and overlooking the Monument's grounds. Addition of the 
property would serve two purposes. First, it would ensure protection 
for the nation's second oldest restored prairie, which holds important 
educational, research, and scientific values. Second, this property, 
located on higher ground, could be used as an alternative location, 
outside of the floodplain, for the Monument's primary cultural 
resource, the Palmer-Epaid cabin, as well as the visitor facility.
PIONEER ACRES GREEN:
    This parcel consists of approximately 3 acres of privately owned 
land. Inclusion of this property in the boundary will provide 
additional protection to park resources from nearby development.
SEGMENT OF STATE HIGHWAY 4:
    This parcel consists of approximately 1.4 acres of Nebraska State 
Highway 4 and its addition will protect natural and archeological 
resources and provide a site to support education efforts through 
interpretive wayside exhibits. The State of Nebraska is currently 
examining proposals to reroute State Highway 4, which would allow for 
this existing road to serve as an access road to the Monument.
STATE TRIANGLE:
    This parcel consists of approximately 8.3 acres and is bounded by 
the Monument on two sides and by State Highway 4 on the third side. The 
property is immediately adjacent to the site of the original homestead 
cabin and will allow for maximizing interpretive efforts and 
maintaining the integrity of the Monument's boundaries.
    At the request of the landowner, the property described in 
subsection (b)(1) the Graff Property must be acquired within five years 
after the date of the enactment of this Act. The family, which has been 
a strong supporter of the Monument, made this request in order to 
better plan for the future and to minimize the impacts on their lives. 
If this legislation is enacted, meeting the request should not be 
difficult since the funds for acquisition have already been 
appropriated.
    Mr. Chairman, the Department supports the enactment of H. R. 38, 
and we thank you again for the opportunity to appear today. This 
concludes my prepared remarks. I will be pleased to answer any 
questions you or other committee members might have.
                                 ______
                                 

 Statement of Dr. Michael Soukup, Associate Director, Natural Resource 
Stewardship and Science, National Park Service, U.S. Department of the 
                    Interior, Concerning H. R. 1925

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H. R. 1925. This bill would 
require the Secretary of the Interior to conduct a study to determine 
the suitability and feasibility of designating the Waco Mammoth Site in 
Waco, Texas as a unit of the National Park System.
    The Department supports this legislation in concept and believes 
that it is wholly appropriate for the National Park Service to 
undertake a study of this nature. However, in light of the President's 
commitment to reducing the backlog of deferred maintenance needs within 
the National Park System, we will neither request funding for this 
study in this fiscal year, so as to focus available time and resources 
on completing previously authorized studies, nor be able to begin the 
study until at least fiscal year 2003, as there are 39 authorized 
studies that are pending, and we only expect to complete a few of those 
this year. Furthermore, in order to better plan for the future of our 
national parks, we believe that studies should carefully examine the 
full life cycle operation and maintenance costs that would result from 
each alternative considered. Additionally, our support of this study 
legislation should not be interpreted to mean that the Department would 
necessarily support designation of a new area.
    H.R. 1925 calls for the completion of a study of the Waco Mammoth 
Site that determines the suitability and feasibility of designating the 
site as a unit of the National Park System. The bill calls for the 
study to be completed under the guidelines in P.L. 91-383 and 
submission of the study results to Congress 30 days after it has been 
completed.
    The Waco Mammoth Site area is located near the confluence of the 
Brazos and the Bosque rivers in Central Texas, not far from the city of 
Waco. Baylor University has been investigating the site since 1978 
after hearing about bones emerging from eroding creek banks that led to 
the uncovering of portions of five mammoths. Since then several 
additional mammoth remains have been uncovered - making this the 
largest known concentration of mammoths dying from the same event.
    The discoveries have received international attention, with 
archaeologists and paleontologists from Sweden and Great Britain 
visiting the site. Many of the remains have been excavated and are in 
storage or still being researched. The University and the city of Waco 
have been working together to protect the site, as well as develop 
further research and educational opportunities.
    We recommend some technical amendments to the bill that would make 
it consistent with the requirements for studying new areas to be added 
to the National Park System that are specified in Section 303 of the 
National Park System Omnibus Management Act of 1998 (P.L. 105-391). 
P.L. 105-391 requires studies of new areas to consider whether the area 
under study possesses nationally significant natural or cultural 
resources and represents one of the most important examples of a 
particular resource type in the country, and is a suitable and feasible 
addition to the system.
    To make the terms of this study consistent with those the National 
Park Service uses to study other potential new areas of the National 
Park System, we recommend referring to the study as a ``special 
resource study,'' and to specifically state that the study should 
determine the ``national significance, suitability and feasibility'' of 
adding the Waco Mammoth Site Area to the National Park System. Also, 
studies of this type often involve consultation with many State and 
local groups and are difficult to complete in the six-month time period 
specified in the bill. We suggest that the report to Congress in 
subsection 1(c) be required within three fiscal years after the funds 
are first made available, which reflects the standard timing for 
submitting studies of this type. The proposed technical amendments are 
attached to this testimony.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the subcommittee may have.
Proposed technical amendments to H.R. 1925, Waco Mammoth Site Study
    On page 1, line 5, strike ``6 months'' and insert ``three years''.

    On page 1, lines 7 and 8, strike ``a study regarding the 
suitability and feasibility'' and insert ``a special resource study 
regarding the national significance, suitability, and feasibility''.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Soukup.
    I think we will hear from Mr. Maurstad and Ms. Riedesel, 
and then perhaps open up for questions, and then move to 1925 
afterwards.
    If that is okay, then, Mr. Maurstad, welcome and we are 
glad to have you here.

STATEMENT OF DAVID MAURSTAD, FORMER LIEUTENANT GOVERNOR, STATE 
                 OF NEBRASKA, LINCOLN, NEBRASKA

    Mr. Maurstad. Thank you, Mr. Chairman. I would like to 
request that the full extent of my written testimony be made a 
part of the record.
    Mr. Radanovich. There being no objection, so ordered.
    Mr. Maurstad. I am very honored to appear before you today 
as the former Lieutenant Governor of Nebraska, mayor of 
Beatrice, and a Nebraska State senator.
    I have lived in Beatrice nearly all my life and own a 
small, independent insurance agency located on main street.
    While not a part of his administration anymore, I can 
assure you that Governor Mike Johanns is in full support of 
H.R. 38, and I am here today to express my strong support for 
H.R. 38.
    Homestead National Monument has existed since 1936 to 
commemorate and interpret the profound influence of the 
Homestead Act upon the Nation and the world, as well as its 
influence on you, me, and millions of other individuals.
    The idea of ``free land'' that culminated with President 
Abraham Lincoln's signature of the Homestead Act in 1862 had 
its roots in the earliest days of our Republic. ``As few as 
possible should be without a little portion of land,'' wrote 
Virginia planter Thomas Jefferson.
    Interestingly, much of the land later opened to 
homesteading was acquired by the United States through the 
Louisiana Purchase, which was made at the direction of 
President Thomas Jefferson. Both of these events represent the 
pioneer spirit that played such a large role in the westward 
expansion of our great country.
    Nearly every aspect of American life was somehow touched by 
the passage of the Homestead Act. Immigration and migration 
patterns were greatly altered. The agricultural production of 
our Nation also skyrocketed thanks to the Homestead Act. In 
response to the demand for newer, better, and stronger 
agricultural implements, many Eastern mills and factories were 
forced to modernize their operations. It may be said that the 
Homestead Act was one of the driving forces behind this 
Nation's Industrial Revolution.
    The Homestead Act also severely affected American Indian 
tribes throughout the West. These few examples demonstrate the 
national and international scope and importance of homesteading 
history.
    In 1936, it was decided to construct a national monument to 
commemorate the influence of the Homestead Act in honor of the 
accomplishments of all homesteaders. That same year, the 
Secretary of the Interior was authorized to purchase the 
original homestead claim of Daniel Freeman.
    Freeman was among the first to claim a homestead on January 
1, 1863. His 160-acre tract in Beatrice was seen as an ideal 
place to demonstrate to the public the great changes brought 
about to the land and to America by the Homestead Act.
    Since 1936, the National Park Service has ably administered 
the Homestead National Monument and shared the important and 
fascinating history of homesteading with hundreds of thousands 
of visitors from all over the country and the world.
    Today, however, the monument has reached an impasse. 
Increasing visitation has rendered the current visitor center 
too small to accommodate everyone, including those with special 
needs. The exhibits inside the museum are not adequate. 
Cultural resources are at risk due to being located within a 
100-year floodplain.
    Deficiencies also exist within the cultural landscape, 
where the interpretive story is missing 36 years of artifacts 
out of a possible 74 due to a lack of space. An additional 
11,000 items are stored in a facility 45 miles away because of 
this lack of storage.
    H.R. 38 represents the next important step in realizing the 
future plans of the monument as well as addressing its current 
shortfalls and challenges. Most important, H.R. 38 will allow 
the National Park Service to obligate funds already 
appropriated by Congress for this boundary expansion.
    Last year I had the opportunity to meet Representative 
Ralph Regula when he toured Homestead National Monument with 
our own representative, Doug Bereuter. I very much enjoyed the 
time I was able to spend with them as they walked through the 
museum and wandered across the 100 acres of tallgrass prairie. 
Like all visitors to the monument, they were able to get a real 
sense of the truly epic scope of the Homestead Act. They were 
also able to witness firsthand the tremendous amount of local, 
State, and regional support for Homestead National Monument.
    In order to present this story as fairly and accurately as 
possible, Homestead National Monument of America must be given 
the means to modernize and improve its facilities. With the 
approval of H.R. 38, this Congress can continue that process 
and take the next step forward in providing information, 
education, and inspiration to the citizens of this Nation and 
the world.
    Today I urge you to support passage of H.R. 38, not only 
for the benefits of the present but also for the honoring of 
the past and the promise of the future.
    We really appreciate Congressman Bereuter's continued and 
strong support for Homestead National Monument of America, and 
that will conclude my comments.
    [The prepared statement of Mr. Maurstad follows:]

  Statement of the Honorable of David I. Maurstad, Former Lieutenant 
                          Governor of Nebraska

    Members of the Committee:
    I am very honored to appear before you today as a former Lieutenant 
Governor of Nebraska. I resigned that position earlier this week to 
accept the appointment by President Bush to serve our nation as the 
Director of Region VIII of the Federal Emergency Management Agency. 
Previously I served as Mayor of Beatrice, Nebraska from 1991 to 1994 
and as a Nebraska State Senator representing the Beatrice and Gage 
County area from 1995 to 1998.
    I have lived in Beatrice nearly all my life and own a small, 
independent insurance agency located on main street.
    I am here today to express my strong support for H.R. 38, known as 
the ``Homestead National Monument of America Additions Act.''
    Homestead National Monument of America has existed since 1936 to 
commemorate and interpret the profound influence of the Homestead Act 
upon the nation and the world, as well as its influence on you, me, and 
millions of other individuals in our nation and across the globe.
    The ``free land idea'' that culminated with President Abraham 
Lincoln's signature of the Homestead Act in 1862 had its roots in the 
earliest days of our republic. A piece of land to call one's own was a 
goal of nearly every American even prior to the revolution against 
England. Many who took up arms in rebellion were rewarded for their 
service with land grants from the new government. Veterans of the War 
of 1812 and other military actions also received land bounties as 
rewards for their service to America. However, some of our country's 
most famous dignitaries supported the idea of giving land not just to 
veterans, but to everyone who met certain criteria. ``As few as 
possible should be without a little portion of land,'' wrote Virginia 
planter Thomas Jefferson. ``The earth is given as a common stock for 
man to labor and live on. The small landholders are the most precious 
part of the state.''
    Interestingly, much of the land later opened to homesteading was 
acquired by the United States through the Louisiana Purchase, which was 
made at the direction of President Thomas Jefferson. The upcoming 
bicentennial of the Lewis and Clark expedition presents a wonderful 
opportunity to link the histories of the Louisiana Purchase and the 
Homestead Act. Both of these events represent the pioneer spirit that 
played such a large role in the westward expansion of our great 
country.
    The debate over free land for settlers continued through the 
sectional disputes of the 19 th century. The first homestead bill to 
pass both houses of Congress was vetoed by President James Buchanan in 
1860. During his presidential campaign of the same year, Abraham 
Lincoln announced his support for the homestead bill and stated that he 
would sign it if elected to the presidency. He made good on this 
promise by affixing his signature to the Homestead Act on May 20, 1862.
    The Act, which became effective on January 1, 1863, permitted 
qualified individuals to file for claims of up to 160 acres of the 
public domain. Filing fees totaling 18 dollars were the only financial 
payments required to make a homestead claim. Settlers had to remain on 
their claims for a five-year residency period; cultivate a certain 
percentage of the land; construct a home on the property; and make 
other general improvements to the land. When the five-year period had 
passed and all filing and paperwork procedures had been completed, the 
homesteader was granted the title, or patent, to that piece of 
property. It was now that person's private property, free and clear.
    The Homestead Act represents the largest giveaway of land to 
private individuals ever undertaken by the U.S. government. Many later 
amendments and separate land laws changed some aspects of the Homestead 
Act. For example, the Kinkaid Act of 1904 permitted homesteaders in the 
dry Sandhills of western Nebraska to claim a full section of 640 acres 
rather than merely a quarter section of 160. In 1889, Congress's annual 
Indian Appropriations Bill allowed for many millions of acres of 
American Indian reservation lands to be opened to homesteading as well. 
This set off the first of several famous Oklahoma Land Rushes. However, 
the overall design and purpose of the Act remained the same: it 
provided people an opportunity to become independent landowners and 
farmers.
    Nearly every aspect of American life was somehow touched by the 
passage of the Homestead Act. Immigration and migration patterns were 
greatly altered. Many citizens of other nations now came to America 
specifically to claim homesteading lands. Since the Homestead Act did 
not require a claimant to be an American citizen-only to declare an 
intention to become one-hundreds of thousands of immigrants from five 
of the seven continents entered this nation and proceeded west to stake 
out their homesteads.
    The agricultural production of our nation also skyrocketed thanks 
to the Homestead Act. So many thousands of new farmers began producing 
unprecedented amounts of crops that by the early 20th century the 
United States was being called the ``breadbasket of the world.'' In 
response to the demand for newer, better, and stronger agricultural 
implements, many eastern mills and factories were forced to modernize 
their operations. It may therefore be said that the Homestead Act was 
one of the driving forces behind this nation's Industrial Revolution.
    As mentioned previously in the example of Oklahoma, the Homestead 
Act also severely affected American Indian tribes throughout the west. 
These few examples demonstrate the national and international scope and 
importance of homesteading history.
    The Homestead Act remained valid and legal in the 48 contiguous 
United States until 1976. It remained so in Alaska until 1986. This 
span of time from the Act's effective date of January 1, 1863 until its 
final repeal in 1986 represents 123 years of American history. During 
this almost unfathomable number of years, some two million individuals 
filed homestead claims in 30 different states. Under the provisions of 
the Homestead Act, the federal government gave to settlers 
approximately 285 million acres of land-about ten percent of all the 
land in the lower 48 states.
    In 1936, while homesteading was still going on in many parts of the 
country, it was decided to construct a national monument to commemorate 
the influence of the Homestead Act and honor the accomplishments of all 
homesteaders. That same year, the Secretary of the Interior was 
authorized to purchase the original homestead claim of Daniel Freeman 
from his descendants for the purpose of constructing this Monument on 
the property.
    Freeman was among the first to claim a homestead on January 1, 
1863, the very day the Act became effective. His 160-acre tract in 
Beatrice, Nebraska was seen as an ideal place to demonstrate to the 
public the great changes brought about to the land and to America by 
the Homestead Act.
    Since 1936, the National Park Service has ably administered 
Homestead National Monument of America and shared the important and 
fascinating history of homesteading with hundreds of thousands of 
visitors from all over the country and the world.
    Today, however, the Monument has reached an impasse. Increasing 
visitation has rendered the current visitor center too small to 
accommodate everyone, including those with special needs. The exhibits 
inside the museum are not adequate. They are narrow in focus, promote 
stereotyping, and are not engaging to the young. Cultural resources 
such as the Palmer-Epard Cabin and the 6,000-item museum collection are 
at risk due to being located within a 100-year floodplain.
    Deficiencies also exist within the cultural landscape, where the 
interpretive story is missing 36 years of artifacts out of a possible 
74 due to a lack of space for museum pieces. An additional 11,000 items 
are stored in a facility 45 miles away because of this lack of storage 
space. Government property is at risk due to improper storage. Working 
conditions are cramped, and the Monument's legislation has not been 
realized.
    The Act of Congress that created the Monument in 1936 specifically 
directed the Secretary of the Interior to ``retain for posterity a 
proper memorial emblematical of the hardships and the pioneer life 
through which the early settlers passed the settlement and cultivation 
of the Great West'' and to ``erect suitable buildings to be used as a 
museum in which shall be preserved literature applying to such 
settlement and agricultural implements used in bringing the western 
plains to its present high state of civilization.'' The most important 
types of such literature are the original case files of all two million 
homesteaders.
    On a daily basis, visitors to Homestead National Monument of 
America ask to see the homestead records of ancestors. These citizens 
of our nation are entitled to have convenient access to these records. 
What better place to view copies of homestead records than the one 
national park dedicated solely to the commemoration of the Homestead 
Act?
    Homestead records are among the most useful, informative, and 
fascinating primary sources available to researchers and genealogists. 
They may contain information about where a homesteader constructed 
fences; what types of animals were kept on the property; where wells 
were dug, and what crops were planted. They may also include the names 
and birth dates of any children born on the land; information about 
military service for homesteaders who were veterans; naturalization 
papers for those who immigrated to the United States; and other 
information not readily available anywhere else.
    For example, the homestead case file of Charles Ingalls-father of 
author Laura Ingalls Wilder and among the most celebrated of all 
homesteaders-states that his family left their property for two 
consecutive winters so that his children could attend school. For 
obvious reasons, these records are much sought after by historians, 
researchers, and genealogists, as well as the millions of living 
descendants of homesteaders.
    H.R. 38 represents the first important step in realizing the future 
plans of the Monument as well as addressing its current shortfalls and 
challenges. Specifically, H.R. 38 will allow the National Park Service 
to do the following:

    1. LPurchase the approximately 16-acre private property owned by 
the Graff family. This land is in a perfect location to house the new 
Homestead Heritage Center approved in the Monument's 1999 General 
Management Plan. It provides a wide, complete view of the Monument's 
restored tallgrass prairie. It is also outside the 100-year floodplain, 
so artifacts and the historic 134-year old Palmer-Epard cabin would be 
much safer from flooding.
    2. LAcquire 1.4 acres of Nebraska State Highway 4. This will aid in 
the protection of the park's natural and cultural resources as well as 
provide education by facilitating the establishment of a parkway-style 
setting complete with roadside exhibits. It will also provide 
continuity between the segments of the road presently found within the 
Monument.
    3. LPurchase the 3-acre Pioneer Acres Green. This is privately 
owned land located next to a housing unit directly adjacent to the 
Monument's boundary. Acquisition of this land will prevent future 
development and intrusion on the scenic landscape.
    4. LAcquire the 8.3-acre area known as the ``State Triangle.'' This 
land also lies adjacent to the Monument. By purchasing it, the National 
Park Service will be able to maximize interpretive efforts and maintain 
the integrity of the Monument's restored tallgrass prairie.

    With this boundary expansion, H.R 38 presents the National Park 
Service with the opportunity to be a good neighbor in that the 
government will only secure land from willing sellers. From what I 
understand, all landowners involved in this plan have indicated a 
willingness to negotiate with the National Park Service. We are very 
fortunate that this federal park site has such neighbors who are 
interested in aiding the nation in telling and understanding the 
incredible story of homesteading.
    H.R. 38 will also allow the National Park Service to obligate funds 
already appropriated by Congress for this boundary expansion.
    Interest in and support of Homestead National Monument of America 
and H.R. 38 has received a great deal of attention through our regional 
media outlets. Many different governmental organizations and citizen 
groups are demonstrating their commitment to the Monument in a number 
of ways.
    The Nebraska Education Task Force has provided resources to develop 
plans for educational opportunities centered around the implementation 
of the Monument's General Management Plan.
    The Southeast Nebraska Distance Learning Consortium is presently 
working to install $200,000 worth of distance learning technology that 
will allow the Monument to reach students in both rural and urban 
environments.
    Numerous organizations have expressed an interest in partnering 
with the Monument to acquire copies of homesteader case files.
    The Nebraska Department of Roads is engaged in planning activities 
that will remove from the Monument a state highway traveled by heavy 
trucks. The Department of Roads also recently named a 40-mile stretch 
of road between Beatrice and the state capital of Lincoln the 
``Homestead Expressway.''
    As you can tell from these examples, Nebraskans and Americans of 
all walks of life hold Homestead National Monument of America in very 
high esteem.
    Last year I had the opportunity to meet Representative Ralph Regula 
when he toured Homestead National Monument of America with our own 
representative, Doug Bereuter. I very much enjoyed the time I was able 
to spend with them as they walked through the museum and wandered 
across the 100 acres of tallgrass prairie. They rediscovered the 
lessons taught in a one-room school and felt the quiet but massive 
power of a 22,000-pound steam powered tractor.
    Like all visitors to the Monument, they were able to get a real 
sense of the truly epic scope of the Homestead Act just by visiting the 
place. They were also able to witness first hand the tremendous amount 
of local, state, and regional support for Homestead National Monument 
of America. This story must be preserved so that it can be presented to 
our next generation, and the next, and the next.
    In order to present this story as fairly and accurately as 
possible, Homestead National Monument of America MUST be given the 
means to modernize and improve its facilities. With the approval of 
H.R. 38, this Congress can begin that process and take the first step 
forward in providing information, education, and inspiration to the 
citizens of this nation and the world.
    Today I urge you to support the passage of H.R. 38, not only for 
the convenience of the present, but also for the honoring of the past 
and the promise of the future.
    Thank you.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Maurstad.
    Ms. Riedesel?

STATEMENT OF LAUREEN RIEDESEL, PRESIDENT, FRIENDS OF HOMESTEAD 
                       NATIONAL MONUMENT

    Ms. Riedesel. Thank you. As a citizen, I think I am in 
charge of show-and-tell. I am also here in support of this. My 
name is Laureen Riedesel, as you said, and I am the president 
of Friends of Homestead. I am also lucky enough to be the 
descendant of homesteaders. I have four homesteaders on every 
line of my family. Unlike Dave, I have not lived in Beatrice my 
whole life. I chose to move there, and the edge was Homestead 
National Monument of America. It is a very exciting portion of 
history.
    To show you an example of local support, I am going to just 
do that: show it to you. This poster was paid for completely by 
private funds, and over 500 of them were produced. And if you 
visit any of the Nebraska Representatives, they should have one 
framed here in Washington and also in their offices back in 
Nebraska, I believe, as well. And this one is yours. I 
apologize. I thought it was too dangerous to bring it in a tube 
on a plane, so it got folded to fit into my suitcase. But it is 
here for you.
    Mr. Radanovich. Thank you very much.
    Ms. Riedesel. I also wanted to show you something else that 
happened. We found the last homesteader this year, which was 
very exciting. It is not often that our local newspaper--
Beatrice is a town of 12,000. In Nebraska, that is the 14th 
largest town but, still, there are only 12,000 of us. We paid 
to send a reporter and also to have someone from the Park 
Service visit the last homesteader, and this is a special 
edition of all those news articles, and I brought a copy for 
every member of the Committee. So I wanted you to be able to 
see for yourselves.
    I also tested airport security to show you what an artifact 
can involve. You hear about Nebraska as the cornhuskers. This 
is the kind of tool that makes you a real cornhusker. This was 
used as a peg to shuck corn. It doesn't belong to the Park 
Service yet, but the local individual whose husband spent his 
life collecting these is donating artifacts, the whole set, to 
the Park Service. I started out with seven different examples 
to show you how this evolved as farmers tried different tools. 
I was afraid it would look like some kind of uprising, so I 
brought only the one that I thought was the most interesting 
along for you.
    We look for supporters everywhere, and as a result, I am 
happy to tell you that you and all the members of the Committee 
are now members of the Tallgrass Prairie Club as volunteers. 
This entitles you to come and visit, and when you are here, we 
will put you to work. But never fear, we are counting on you 
working for us here in Washington as well. So although we would 
love to have you come and visit, we know you can do some good 
work here.
    I also wanted to make sure that you, like me, we can 
advertise Homestead National Monument wherever we go. So I did 
bring you three different forms of pins, and, again, there 
should be one here for every Committee member so that we are 
not far from your thoughts.
    Mr. Radanovich. Thank you.
    Ms. Riedesel. You are welcome. That is my gift. Now, of 
course, for what I want.
    When I was hearing them talk about the people and 
supporters, there is something I think you should know about 
the Graff family. When Daniel Freeman went off to Brownville to 
file that first claim--and he did that classic thing of even 
getting them to open the land office at 1 minute after midnight 
so that he could be number one, and locally he got people to 
call him ``Old Number One.'' He was promoting Homestead 
National Monument of America before it ever existed.
    The people who took care of his cattle and who made sure 
that he could leave were the Graff family. In other words, if 
it weren't for the Graff family, he wouldn't be able to do 
that. These folks are very committed to this project. They have 
served as officers within the Friends of Homestead 
organization, and this is a voluntary sale. And I just wanted 
to assure you of that, that they sat in on as many meetings as 
they thought were appropriate. And we even had a situation of 
men sending their wives to public meetings because they didn't 
want anything to appear to be improper. So we have been working 
with the neighbors, and this is something that they truly do 
support.
    When I came here, I flew into Baltimore this time, and so I 
had a little jaunt over here, 31 miles, or whatever it is. And 
I was in a car with three other ladies, or in a shuttle bus, 
and everyone was telling why they were coming and what kind of 
trips they had had. It turned out to be two nuns and an 
organizational development consultant. They are all over at 
Washington University today studying.
    When they heard why I was coming, I immediately had a nun 
from St. Louis tell me a homesteading from Kansas story from 
her family. This happens to me continually. People from coast 
to coast have homesteading connections. This is one of those 
stories that underlines so much of our history that we can't 
even see it anymore. There are so many homesteaders, so many 
people living on homesteaded land. It is such a draw. Even 
people who never lived on a farm have that connection from 
people who dreamed about free land. And they may never have 
even made it out of New York City or Baltimore or the other 
port cities. But they were so excited, they went for it.
    I know I am supposed to stop, but I will just say one more 
thing.
    Mr. Radanovich. That is fine.
    Ms. Riedesel. It is those homesteaders that overran Castle 
Garden and created Ellis Island. If it weren't for this free 
land promise, many, many people never would have left Europe.
    Thank you for your time. As I mentioned, obviously I am 
support of this, and I am counting on all the things I didn't 
get to say, which was a 20-minute speech, going into the 
official record. Thank you very much.
    [The prepared statement of Ms. Riedesel follows:]

Statement of Laureen Riedesel, President, Friends of Homestead National 
                       Monument of America, Inc.

    My name is Laureen Riedesel. I am President of the Friends of 
Homestead National Monument of America here to testify in support of 
H.R 38. I am honored to be speaking to all of you, but I feel most 
honored to be speaking on behalf of the two million homesteaders, their 
families and descendants. These people claimed land in thirty states 
and, in the process, helped to make this country the great land that it 
is today. Today, those thirty states produce a gross product of $4.63 
trillion, 54.2% of the Gross Domestic Product, according to the latest 
statistics available from 1998. The earliest homesteaders came West 
from states that were the original thirteen colonies, such as 
Massachusetts, Maryland, North Carolina, New Jersey and Virginia, and 
other states located east of the Mississippi, such as Tennessee, so the 
Homestead story begins with a truly national emphasis. However, the 
great impact of the Homestead Act was international in scope. With the 
notable exception of the Chinese and other Far Eastern people, 
individuals from other countries could come to America and file for 
government land, based upon their intention to become citizens. And 
they did both. Despite the restrictions, people with ancestry from five 
continents came to the United States and homesteaded. Millions of 
people came to America because of the promise of ``free land.'' Many of 
them never left New York City or the other ports where they arrived, 
but that dream of a place of their own had drawn them like a magnet 
across the ocean. Others traveled to Chicago or St. Louis or other 
larger cities in the United States before they, too, settled down in 
businesses they knew from home, but it was that homestead idea that 
gave them the courage to move. Many made it to smaller communities and 
settled there rather than braving the adventures of turning the sod, 
being the first to claim individual ownership of 160 acres of land, and 
walking ten miles to plow just one acre! Still others saw the homestead 
land that was available and decided to work and save to buy someplace 
else, like Texas! None of these people were homesteaders under the 
definition of the 1862 Homestead Act passed by Congress, but the 
homesteading promise brought them to this country where they and their 
children became part of the reality of the great ``American Dream.''
    What about the two million who actually filed? They are the people 
we honor at Homestead National Monument, the ones who followed their 
hearts to new places and committed all they had and more to make 
undeveloped federal land into their homes. Many of them succeeded and 
passed along that land, so that it is still in their families to this 
very day. Others used one homestead to finance the next and moved from 
heartland states like Iowa and Nebraska to coastal states like Oregon 
and Washington, all because of the Homestead Act. Some failed for 
reasons as varied as their abilities as farmers, the marginal nature of 
the land, the climate, the economy and combinations of all these 
factors and more. However, these first-generation homesteaders' 
failures became the foundation for the next landowners' successes. 
Congressman Bereuter's family purchased land that had originally been 
an unsuccessful homestead claim; he represents that large group of 
hardy settlers who were able to understand the land and transform it 
into successful farm operations. These pioneers sometimes characterized 
themselves as the true homesteaders because they made the dream a 
reality; they created the American Bread Basket that today feeds the 
world.
    Homestead National Monument of America is unusual. It is not 
beautiful like the Grand Tetons, although there is certainly beauty in 
acres of native tall-grass prairie. It is not a patriotic symbol like 
the Statue of Liberty, although an 1867 hand-hewn log cabin is 
certainly an American icon. Nor is it considered hallowed ground such 
as Gettysburg, although there is something sacred about growing the 
food that sustains life. However, it is significant at both the 
national and international levels. This former farm in Nebraska 
represents the millions of farms and millions of dreams of Americans 
who took up the U.S. Congress' offer of ``free land.'' It represents a 
second chance for many citizens who moved into new territories, and it 
represents a new life for many immigrants who had come to find a home. 
The possibilities seemed as unlimited as the prairie horizon and the 
hope seemed as great as the stars in the sky. And all of that promise 
did lead to stars - on the flag. When the Homestead Act was passed in 
1862, there were 35 states. When in ended in 1986, there were, of 
course, 50.
    Homestead National Monument of America is located on one claim that 
was selected to represent many. Appropriately, it was one of the many 
``first'' claims filed on January 1, 1863, and it is THE FIRST of those 
that were ``proved-up'' five years later to become the personal 
property of Daniel Freeman. Because it is just one of the literally 
millions of claims, the responsibility of educational interpretation is 
enormous. The Monument was founded in 1936 during the Great Depression, 
the time of the greatest challenge to American agriculture since the 
passage of the Homestead Act. At a time when virtually no one was 
thinking about the value of native prairie, a decision was made to 
attempt to restore a tall-grass prairie at the newly-established 
Homestead National Monument of America. Of all the choices that could 
have been made, this is probably the one that has the most to offer 
today's visitor. In a rural state like Nebraska, it is possible to see 
farming everywhere, the modern-day version of the original farms 
created by the homesteaders. It is not that easy to find acres of 
native prairie, particularly the tall-grass variety, and yet that is 
what the early homesteaders saw and transformed into farms. The result 
of taking the Homestead National Monument land back to its origins is 
the second oldest restored tall-grass prairie in this country, now a 
landmark in itself. However, this is only one of the landforms that 
greeted (or intimidated) homesteaders. The Monument cannot use just its 
own landscape to tell the full story of homesteading and the variety of 
land that was made available for claims. It is only if the Homestead 
National Monument is able to utilize a full range of technological 
options that the true scope of the Homestead Story can be understood.
    As part of a National Park improvement program in the late sixties, 
a Visitor Center was constructed at Homestead National Monument of 
America. It emphasized the basic legislative history of the Homestead 
Act as well as information about the Beatrice, Nebraska location. These 
exhibits have served the Park Service well because they are still in 
place over thirty years later. Unfortunately, the Visitor Center did 
not meet the original mission established for Homestead National 
Monument of America when it was founded in 1936, and it certainly does 
not meet it today.
    There are a number of key elements missing from both the 
interpretation and the services offered. I will begin with the 
interpretation. First, there is no exhibit about the displacement of 
native people. One of the ironies related to the Homestead Act is that, 
in the process of making homesteads available to some, others were 
relocated from their traditional homes. Second, there is no significant 
mention of the immigrants who did so much to make the Homestead Act as 
popular as it was; the people who left virtually everything behind to 
pursue that promise off ``free land.'' These new arrivals actually 
overwhelmed the immigrant facilities at New York's Castle Garden and 
created the need for Ellis Island. Although many of the immigrants did 
not homestead, the promise of owning their own land pulled them across 
the Atlantic from the places where they were born. While the Homestead 
Act is not remembered in many families any more that the names of the 
ships that brought them, the ``free land'' possibility became part of 
the larger promise of freedom that was as compelling to their 
nineteenth century ancestors as it had been to the Mayflower pilgrims 
in 1620! For many African-Americans, the Homestead Act provided their 
first chance to file for land of their own after years of living as 
slaves in this country. It was also an opportunity for women to claim 
land in their own right at a time when they were still decades from the 
right to vote.
    Another missing element in the exhibits at Homestead National 
Monument of America is the power of the Homestead Act as a catalyst for 
the continuation of the Industrial Revolution through agriculture. In 
order to realize the potential of the acres and acres of land in 
America, new equipment and supplies had to be developed - from sod 
cutters to barbed wire. Nebraska's Representative Tom Osborne will be 
happy to know that his homesteading relatives could have been true 
Cornhuskers with newly-patented husking pegs developed for the farms of 
the Great Plains. This was the time of transition from farming by hand 
to farming with machines, with the government's offer of ``free land'' 
as a driving force behind this national phenomenon. The Homestead Act 
began in Nebraska and ended in Alaska. This represents many different 
climates, crops, and machines. As the sole symbol of this huge story, 
Homestead National Monument of America is not currently equipped to 
tell it effectively.
    A service that is lacking at Homestead National Monument relates to 
its mission of persevering historic equipment in order to trace the 
development of American agriculture. Recently, a local group of steam 
engine enthusiasts raised money to purchase a 1912 Case steam-powered 
tractor. They consider it a real bargain at $10,000! This magnificent 
machine has been characterized as a ``locomotive off the rails'' by 
Mark Engler, Homestead National Monument's Superintendent. He is 
absolutely correct. This incredible piece of history is always a big 
attraction when it is brought to the Monument for special occasions. 
Its whistle cannot be ignored! The steam engine organization would like 
to have this housed permanently at Homestead National Monument, and the 
staff agrees that it is a perfect fit in telling an important part of 
Homestead story. However, no appropriate facility exists for exhibit or 
storage. This is one of the many needs that could be addressed in a new 
facility.
    Although I have mentioned the end in 1986, most homesteading 
activity took place between 1863 and 1937. That was a long time ago, 
and it requires more imagination than the average person has to 
envision the reality of that period. This becomes more challenging as 
the audience becomes more urban, since this is an account of early 
rural life. On the subject of audience, the most important group to 
impress with the value of history is the young. They are also the most 
challenging group to convince. While the restored prairie provides a 
unique experience, it is located beside a State Highway and across the 
road from a modern housing development. In order to better understand 
the homsteaders' reality, the best of modern technology is needed to 
invoke the experiences that are the very foundations of a work ethic 
that characterizes Americans to this very day. The homesteaders' 
tenacious hold on their dreams is one of the most valuable lessons we 
can pass on to our children, particularly at this challenging time in 
our history.
    From the beginning, Homestead National Monument of America was 
given the responsibility of creating a comprehensive library related to 
the Homestead Act and homesteading. (This is the one missing service I 
mentioned earlier.) The reality of this goal has never been fulfilled 
because the full scope of this mission could never be realized until 
now. In addition to all the books and other published information about 
homesteading that could and should be at Homestead National Monument 
(and isn't!), I am referring to the files of the two million 
homesteading claims, including an estimated thirty million records. The 
second-most asked question at Homestead National Monument of America is 
``Can I find out about a homesteader in my family? I am not sure 
exactly where he homesteaded, but I do know his name.'' This is a 
perfectly reasonable request based on the perfectly reasonable 
expectation that the one national monument dedicated to telling the 
story of the Homestead Act would have access to these records. In the 
past, it has never been possible to provide this information because 
there is only one copy of each record located, appropriately enough, in 
the National Archives. There is no index available by personal name or 
common geographic area. These are land records, and it requires section 
and range information to access them. Now it is possible to copy these 
records and use automation technology to create files by both name and 
geographic headings. Just as immigration records are vital to Ellis 
Island, the homestead records are vital to Homestead National Monument 
of America. However, the difference is that records are available at 
Ellis Island; they are not available at Homestead National Monument. 
The people of this country, many of them descendants of these 
homesteaders, have the right to expect to find this valuable public 
information available to them at and through Homestead National 
Monument of America. This year, the current Homestead web site has 
received over 7,000 hits per month. Just imagine its potential for 
providing information from homestead records to people worldwide and 
how much it would be used if these records were available from this 
source.
    Homestead National Monument recognizes this responsibility and has 
received funding to develop the plans for copying and indexing the 
homestead files. As part of the planning process, I was fortunate 
enough to be allowed to travel with Park Service employees to visit the 
Bureau of Land Management and Archives I and II. As a professional 
librarian, the closed storage areas of the National Archives are one of 
the most exciting places I ever expect to be! I had the opportunity to 
look at the early homestead records from the Brownville, Nebraska Land 
Office where our area's earliest claims were filed. The only thing that 
could have made me happier would have been seeing the records of my own 
relatives. I have homesteaders on four sides of my family. Two of my 
relatives homesteaded at least twice. All of them proved-up on at least 
one claim. Unfortunately, I do not know the location of many of these 
claims, so I cannot access those records. If this seems whimsical or 
like an exercise in historical trivia, I would point out that many 
homesteaders moved from one side of this country to the other. They 
left family members along the way, people who lost track of each other. 
In a day and time of tissue matches and donor organs, I believe that 
these records may actually help relatives find each other and even save 
lives!
    All of this requires a different type of facility than the one that 
currently exists at Homestead National Monument of America. It also 
needs to be located in a different place. One of the most basic 
concepts in the Homestead Act was the division of land into 160-acre 
claims. Today, that amount of land is virtually meaningless to people 
accustomed to lots and blocks. The new plan for Homestead National 
Monument would allow the visitor to see what 160 acres means, something 
that is difficult to visualize while standing on the land rather than 
viewing it as a whole from a nearby location. The acquisition of land 
(the Graff plot) overlooking the Monument would fulfill this need in a 
way that no other available land can.
    The ``free land'' promise defines America. I visited England this 
past June and had the chance to visit the birthplace of my great-great 
grandfather in Cornwall. While waiting for the bus to his little 
village, I was asked why I was visiting this remote place. When I 
explained about my family, the first question they asked was ``Did he 
get any land?'' When I told them about his 60-acre farm in Wisconsin, 
they were disappointed. ``What about that 160 acres he could get from 
the government?'' They didn't refer to the Homestead Act, but that's 
what they meant. I explained that his son had married a homesteader's 
daughter, so that the 160 acres came into the family that way. They 
just beamed, ``He got land,'' they said, ``he got land.''
    I also visited one of the oldest tourist sites in England - 
Canterbury. I met an eighty-year old miner who wanted to know something 
about where I lived in America. I just mentioned the words ``First 
Homestead'' when he interrupted me to tell me his version of the 
Sooners in Oklahoma. He certainly understood about the eagerness to get 
that government land. And, of course, the Sooners are some of the most 
famous of the homesteaders! I didn't even try to explain the 
differences between Nebraska and Oklahoma. As he had already told me, 
``You don't have a country - you have a continent.'' He was correct in 
this and in his understanding that it was the government's free land 
offer the encouraged settlement ``from sea to shining sea.''
    We haven't been able to transform all of that interest in the 
``free land'' into visitors to Homestead National Monument of America, 
but we would certainly appreciate your help in our effort to do so in 
the future. Homestead National Monument has over 40,000 visitors a 
year. This is a mere trickle compared to the true potential of this 
site. Like the country as a whole, tourism is the number three 
contributor to the economy in Nebraska. We are working to make this a 
stronger number three. Homestead National Monument is located 50 
minutes from Interstate 80, the busiest cross-country roadway in the 
United States. The present Visitor Center was an improvement when it 
was built in the 1960s. (The first center I visited as a child is now 
used as a the maintenance building.) And the Visitor Center should have 
a continued use as an Education Center, linking our corner of the world 
to many other corners of the world via telecommunication. We even have 
a planning grant from a local, educational non-profit organization to 
help implement this. But the present Visitor Center is not the facility 
that is needed to tell the Homestead story. We want to place a 
wonderful new facility on the gentle rise just beyond the graves of the 
Freemans, our first homesteaders, so that our visitors can look over 
this beautiful 160-acre spread with its restored tall-grass prairie, 
winding tree-lined creek, and historic Osage Orange hedge planted to 
mark the property line before barbed wire was even invented.
    Today, we find ourselves valuing our country anew. We are thinking 
about those characteristics that are special about the United States 
and the experiences that are uniquely American. One of the most 
important of these is homesteading. It is a true story of this country 
that has become mythic in the slogan ``free land.'' The Homestead Act 
is legislation that made the American dream a reality for thousands of 
people. It gave five generations of Americans economic opportunities 
unavailable anywhere else in the entire world. It began with Daniel 
Freeman, a Civil War Veteran and ended with Ken Deardorff, a Vietnam 
Veteran. It taught us that people from many different places with many 
different experiences could come together and create something bigger 
and better than any of them had ever imagined. It encouraged us to 
believe in ourselves and cooperate with our neighbors. After all, 
nobody raises a barn alone! The fact is that the 1862 Homestead Act had 
a big hand in making us what we are today as Americans. We need to 
remember this story and comprehend its meaning in order to face our 
future!
    We are just beginning to really understand this story. It was not 
until the 1990s that a political publication identified the Homestead 
Act as Number Three on a Top Ten list of the most important legislative 
acts in America. All of you have a better idea than I do about how many 
acts have been passed by Congress. I just know that it is very 
significant to have made it to the Top Ten of that large number! There 
is still much that we are just learning, and we do want to thank you 
for making it possible to have a historian to help with this quest. We 
do know that Willa Cather wouldn't have written the books she did 
without the Homestead Act. For that matter, neither would Laura Ingalls 
Wilder. Who would want to miss out on Little House on the Prairie? Yes 
- you guessed it - a homestead story! George Washington Carver was a 
homesteader, and you thought he was just famous for all those clever 
uses of peanuts! Perhaps Lawrence Welk would have made Champagne Music 
without the Homestead Act, but fortunately we don't have to find out of 
that is true! Lawrence Welk's parents homesteaded in North Dakota, 
where they played music during those long, cold nights on their 
homestead. The rest is history!
    Without the Homestead Act, we know the world would be a very 
different place. We would literally not be the people we are if our 
ancestors from different states and countries had not met in America. 
Many problems of the Old World (increased population, crop failures, 
political unrest) would have had different outcomes without the 
solution offered by emigration to the New World. And Thomas Jefferson's 
prediction that it would take a ``full forty generations just to 
explore the full United States'' might have been more accurate without 
the incentive for settlement offered by the Homestead Act.
    There are two million stories to tell, accounts from states as 
varied as Florida and Minnesota, from climates that range from 
subtropical to arctic, and from desert to tundra. Nebraska is a 
wonderful state full of amazing contrasts, but this is too much for 
even it to handle! In fact, no one place can tell the story of the 
others without help, and that is what we are asking of you. We want you 
and every other visitor to enter a building where the variety of 
climates, structures and daily life of the homesteaders can be 
experienced vicariously through both authentic artifacts and 
technological re-creations. We want you to be able to research your 
homesteading relations by simply entering their names in a computer, or 
by entering that places name where you know some relative once lived. 
And if you don't have any homesteading connections, then we really want 
you to visit and to learn how important it is!
    There was never any ``free land.'' People paid all along the way. 
This is a story of sweat equity, of deep despair and wild success, of 
dashed hopes and dreams come true! It is the story of America. It is a 
story that makes us understand where we came from, who we are and, if 
we are really paying attention, it may just help us figure out where we 
are going!
                                 ______
                                 
    [Attachments to Ms. Riedesel's statement follow:]
    [GRAPHIC] [TIFF OMITTED] T5529.001
    
    [GRAPHIC] [TIFF OMITTED] T5529.002
    
    [GRAPHIC] [TIFF OMITTED] T5529.003
    
    Mr. Radanovich. Thank you very much. I appreciate your 
enthusiasm for the monument.
    I think if it is okay, I am going to start off with a 
couple of questions, and I wanted to ask Dr. Soukup, tell me 
about the Homestead Heritage Highway, Doctor. Is that part of 
the National Park Service's plan for this monument? And I guess 
I am thinking of--I am near Yosemite, born and raised near 
Yosemite National Park, and there is a Park Service program 
that allows the park to spend time and money outside the park 
to dedicate highways. I am wondering if it is similar to the 
one that is expressed here, and how important is Heritage 
Highway to the monument itself?
    Mr. Soukup. As I understand it, the original part of the 
Heritage Highway will be that part that is ceded by the State 
of Nebraska, that part that is within the monument boundary. 
That road is going to serve as an access road, but also be used 
as an interpretive opportunity with waysides and pullouts and 
perhaps a radio station kind of access for the visitor to 
understand what they see.
    It is hoped that the additional section of road in the 
direction of Beatrice will become the rest of that Heritage 
Highway, but this bill doesn't speak to that, and our testimony 
really concerns only that part of the road that is within the 
boundary or within that area of the park.
    Mr. Radanovich. Right, okay. Mr. Maurstad, I want to 
congratulate you on your recent appointment as director of 
region--what would it be?--8 of FEMA.
    Mr. Maurstad. Yes, sir.
    Mr. Radanovich. I want to congratulate you on that, and I 
appreciate the job that you are doing in this time of terror in 
the United States. I appreciate the work that you are doing 
there and wish you good luck.
    Ms. Riedesel, tell me how you think that the additional 
land that would be added to the monument would help you meet 
some of the shortcomings or problems that you would see facing 
it, if I can get an idea of how you would view this addition of 
property to help out some of the problems you are facing there.
    Ms. Riedesel. I will just deal with three of them and set 
the Graff property aside. Three of them just basically make 
official things that look to the passerby like they belong to 
the monument. So that is just almost land housekeeping, if 
there is such a concept. And, again, they often relate to the 
highway and the change in the highway from the past and then, 
again, what we are hoping to do in the future in terms of 
better integrating that highway into a linkage between the 
sites rather than having it be such a barrier and a division 
and distraction.
    The fourth part of the property, the Graff property that 
overlooks the land, I think is very important both to offer an 
overview--part of the story is the 160 acres, and it will allow 
a person to look over the native prairie and actually see that 
land, see how it is laid out. It also would allow a modern, 
state-of-the-art, if you will, type of museum, not just a 
visitors center but actually an opportunity to exhibit 
artifacts and to make the interpretation of this more 
appropriate to the 21st century. We have done very well with 
the exhibits we have had, but they are now about 40 years old 
and that does show.
    More importantly yet, it gives us an opportunity in terms 
of the records. Like Ellis Island, the records for homesteading 
are pretty crucial. And as we have seen with the recent World 
Trade Center, it is pretty important to have records more than 
one place, and to be able to access those records at the very 
site that is dedicated to homesteading and the Homestead Act 
seems both natural to the people who come there to visit, and 
this facility would allow it to be done in a way that would be 
a modern library research type setting.
    Then, of course, there is the whole issue of people who are 
used to Disneyland-style experiences. Not being able to 
imagine--just taking them on the prairie does not help them. 
And taking them on the prairie doesn't help them understand the 
tundra or the Alaska or Arizona adventures in homesteading.
    So we are looking for a facility that will actually use 
technology to provide that vicarious experience.
    Mr. Radanovich. I see. Okay. Thank you very much.
    Doug, did you have any questions?
    Mr. Bereuter. No. Thank you.
    Mr. Radanovich. Well, I want to thank you for being here, 
and I think with that we are going to move on to H.R. 1925, 
and, Mr. Smith, welcome, and please take your time to comment 
on the project.

 STATEMENT OF CALVIN B. SMITH, CHAIRMAN, DEPARTMENT OF MUSEUM 
     STUDIES, AND DIRECTOR, MAYBORN MUSEUM COMPLEX, BAYLOR 
                    UNIVERSITY, WACO, TEXAS

    Mr. Smith. Thank you very much. It is a privilege to be 
here. I would like to mention that I had three colleagues lined 
up to assist in the testimony, all of which are now at the 
Society of Vertebrate Paleontology Annual Meeting, so they 
couldn't be here this week.
    Four things I think make the Waco Mammoth Site unique. 
First of all, it is the largest concentration of a single herd 
dying from the same event known to science in the world. That 
is considering, certainly, those sites like South Dakota, Hot 
Springs, South Dakota, and those sites in Eurasia where there 
are many more animals, but it happened over thousands of years. 
So this was a single event that occurred between the Bosque and 
the Brazos rivers some 28,000 years ago.
    Secondly, there were actually two--Congressman Edwards 
mentioned the 45-year-old female that was trying to extricate 
the juvenile. There was also--and the only time that this has 
been recorded, the only bull in the herd was trying to 
extricate a 13-year-old animal and went down in what we call 
the sudden death syndrome position, and that has been cast in 
situ, making it the largest field cast ever made. And it is now 
an exhibit called ``Elephants'' that is touring the country.
    Then, thirdly, these two protective behavioral examples are 
the first in prehistoric proboscidean behavior that have been 
recorded. So this becomes unique to this particular site, and 
certainly from the standpoint of comparison between this site 
and modern proboscidean behavior, it becomes an example of 
study.
    The fourth thing which makes it important globally is that 
potentially this is the most significant contribution the 
Mammoth Site can offer in the areas of research and 
interpretation, is the evidence that the herd was under severe 
environmental stress. Now, this occurs at the end of one of the 
major glacial periods at the late Pleistocene. So perhaps this 
study will lead to further investigations that might reveal 
extreme droughts at the end of each glacial period, which is a 
brand-new thought, brand-new concept. I have been requested by 
researchers from both Great Britain and Sweden to come and 
visit this site.
    The site was actually--the bone mass was--the land where 
the bone mass is was donated by Mr. Sam Jack McGlasson to the 
city of Waco in 1996, and then in the past 2 years, with the 
help of Mr. and Mrs. Buddy Bostick and Don and Pam Moes of 
Waco, we have been able to acquire the 100 acres adjacent to 
this particular site. So it solidifies our need for a buffer to 
make sure that there is no further development in that 
immediate area.
    But now that the land has been acquired and the site is 
secure with a fence, the number one objective from our point is 
to protect the existing skeletal material remaining in situ. 
The only way to do this without removing and then destroying 
much evidence is literally to build a structure over the site. 
The pavilion, by necessity, would need to encompass the 
original discoveries, current specimens, and future potential 
excavations, which we know that there is one more animal, the 
24th animal, about 70 feet away. The facility would need to be 
about 140 by 140, approximately 20,000 square feet. It would 
need an ADA-accessible ramp allowing the experience of seeing 
how the site was discovered and an overview of the entire 
investigations leading to the interpretive and administrative 
support areas.
    The key in this venture is to identify who is taking the 
lead during the development process and at what point the land 
transfers--and I mean literally from Baylor to who, the city, 
the Nation, whomever--might be made to maximize their 
effectiveness in matching grants and funding to establish the 
resulting parameters for the maintenance and operations of the 
site.
    Dr. Gary Haynes made this comment the last time he was on 
the site, and he said this is ``the most important 
paleontological site of its kind in the world today.'' Very 
rarely does a university, a city, a State, or even a nation 
have something of this magnitude and significance to make it 
truly one of the world's largest or one of the most important 
anything.
    Recognizing existing priorities, strained budgets, and 
uncertain income of national, State, municipal, and academic 
organizations, this project necessitates an innovative approach 
to successfully reaching its full potential. In other words, I 
am thinking that we all need to get together and make this 
happen.
    To save not only the integrity of this globally unique site 
but also the significance of what it can provide the immediate 
area, which we just received an economic analysis stating that 
this would assist the city of Waco and the immediate area some 
$8 to $10 million per year if it were made--if we were able to 
develop this. It can provide entertainment, tourism, education, 
and continued contributions to the scientific community, and 
that should be a major consideration in the decisionmaking 
process of all the entities that would derive benefit from the 
investments made.
    The enactment to study the suitability and feasibility of 
designating the Waco Mammoth Site as a unit of the National 
Park System would honor the city of Waco, Baylor University, 
and the Mayborn Museum Complex, our patrons, the foundations 
who have supported us, and would enable all interested partners 
to work toward an educational and recreational facility second 
to none in the field of proboscidean research and 
interpretation.
    Thank you very much.
    [The prepared statement of Mr. Smith follows:]

 Statement of Calvin B. Smith, Chairman, Department of Museum Studies 
  and Director, Mayborn Museum Complex, Baylor University, Waco, Texas

    The Waco Mammoth Site located between and just above the confluence 
of the Bosque and Brazos Rivers within the city limits of the City of 
Waco, Texas represents the largest concentration of prehistoric 
proboscideans (elephants) dying from the same event in the world.
    In 1978 Paul Barron and Eddie Bufkin found a bone eroding out of 
the bank of a small tributary of the Bosque River and brought it to the 
attention of David Lintz of Baylor University's Strecker Museum and 
thus the paleontological discovery was brought to light.
    Thusfar, twenty-three Mammuthus columbi (Columbian mammoths) have 
been excavated by researchers from Baylor University since the site was 
discovered. Caught in a sudden and probably severe deluge they were 
entrapped by a mudflow some 28,000 years ago. Although the adults of 
the nursery herd had time to form a defensive posture around the young 
they were covered quickly and completely by the catastrophe that 
preserved their remains until the small tributary of the Bosque was 
created within the past century.
    One of the specimens, a 45 year old female was entombed as she 
tried to extricate a juvenile from the mire and went down in an upright 
position with her tusks still under its chest and belly.
    The herd bull, a 55 year old male, with 8-foot tusks would have 
stood 13.5 feet at the shoulder, weighted 5-6 tons, required up to 600 
pounds of food and 35 gallons of water a day also succumbed to the 
ravages of the event with his right tusk under another juvenile in an 
attempt to save the youth by lifting it to safety. Both of these 
specimens have now been cast in situ (as they were exposed) still in 
matrix (the soil) that surrounds them resulting in the largest field 
cast ever made which is being shown in a traveling exhibition called 
``Elephants'' currently touring the United States and to date it has 
been seen by over 1 M people.
    These two protective behavioral examples are the first ever 
recorded in prehistoric settings and was part of a presentation made to 
the 30th International Geological Congress held in Beijing, China 
during the summer of 1996, by site Director, Calvin Smith, making it 
well known globally in the scientific community.
    Approximately five acres encompassing the existing discoveries was 
donated by the late Mr. Sam Jack McGlasson to the City of Waco in 1996. 
Plans for the future development include a pavilion to be placed over 
the site, with interpretive exhibits, gift shop, offices, meeting room, 
curatorial lab and restroom facilities.
    In 2000 purchase of an additional 55 acres was made by Baylor, 
which secured access to the Bosque River with gifts from Mr. and Mrs. 
Buddy Bostick and Don and Pam Moes of Waco.
    This year with a major reduction of the initial cost by Mrs. 
McGlasson and additional funding received from Mr. and Mrs. Bostick 
Baylor purchased the 50 acres leading up to Steinbeck Bend Road 
providing access from a major highway and enough frontage for entry and 
a 250-space parking area.
    Estimates for future attendance to the site (without National Parks 
Service designation) range between 100,000 to 200,000 per year with 
excellent regional appeal and special interest group participation 
expected. The only other similar presentation with on-going 
proboscidean excavations that can be viewed by the general public is 
the Hot Springs, South Dakota site which has over 100,000 visitors per 
year.
    Promotion of this attraction will help Waco in their effort to 
become a destination for tourists who might be lured off the Interstate 
simply because it affords and even greater diversity of cultural and 
educational opportunities for the traveler. Visitors from as far away 
as the Dallas-Fort Worth Metroplex, Austin, San Antonio and Houston 
areas can be expected as the offerings are made known and are made 
available to the public.
    Special interest groups, other individuals, corporations, and 
foundations within the community are interested in helping assure the 
permanency of the site, but a comprehensive plan is needed with all of 
the participants in agreement with all of the future responsibilities 
and operational parameters clearly understood.
    Now that the land has been acquired to secure the site from unknown 
questionable future development, the number one objective is to protect 
the existing skeletons remaining in situ. The only way to preserve the 
bone in its original context is to establish a climate-controlled 
structure over the site.
    This pavilion would by necessity need to encompass the original 
discoveries, current specimens, and future excavations. The minimal 
projected size is 140-ft. X 140 ft. or approximately 20,000 square 
feet. The facility would provide an ADA accessible ramp allowing the 
experience of seeing how the site was discovered and an over view of 
the entire investigations leading to interpretive and administrative 
support areas.
    The exit would allow visitors to go back to the parking lot or 
enter the nature trail leading to a nature center and the Bosque River.
    Utilization of the 55 acre tract would follow the proposals made by 
Don and Pam Moes which fits ideally with the purposes an requirements 
outlined in the Texas Parks and Wildlife grant.
    These two objectives are totally compatible and each could be 
pursued simultaneously and/or jointly depending on the interest of the 
donors and/or other granting agencies.
    The additional 50 acres leading up to the main vehicle artery to 
and from the Waco Regional Airport opens many avenues to future funding 
from TX DOT as well.
    The key in this venture is to identify who is taking the lead 
during the development process and at what point land transfers might 
be made to maximize their effectiveness for matching grants/funding and 
establish the resulting parameters for the eventual maintenance and 
operations of the site and faculties.
    ``The most important paleontological site of its kind in the world 
today'', according to Dr. Gary Haynes formerly with the Smithsonian 
Institution now at the University of Nevada, is in danger. The 
remaining specimens located in situ are experiencing bone degradation 
at an escalating rate making their preservation the most critical issue 
in considering what happens next.
    Very rarely does a University, a City, State or even a Nation have 
something of this magnitude and significance to make it truly ``one of 
the world's largest or most important'' anything.
    Recognizing existing priorities, strained budgets, and the 
uncertain income of national, state, municipal, and academic 
organizations this project necessitates an innovative approach to 
successfully reach its full potential.
    To save not only the integrity of this globally unique site but 
also the significance of what the immediate area can provide in the way 
of entertainment, tourism, education, and continued contributions to 
the scientific community is, or should be, a major consideration in the 
decision making process of all the entities who will derive some 
benefit form the investments made.
    The enactment to study the suitability and feasibility of 
designating the Waco Mammoth Site Area as a unit of the National Park 
System would honor the City of Waco, Baylor University the Mayborn 
Museum Complex, patrons and foundations, and would enable all the 
interested partners to work toward an educational and recreational 
facility second to none in the field of proboscidean research and 
interpretation.
    Thank you, for this opportunity to testify before your committee.
Recommendations for the Waco Mammoth Site
1. LProtection of a resource unique in the world for understanding 
behavioral pattern of extinct proboscideans
    a. LNothing to inhibit future research and excavation
    b. LSecure buildings and fences with mechanical interior and 
perimeter monitoring
    c. LControl of entrance and exit to the park
2. LCreation of a world-renown tourist destination with use fees 
partially supporting maintenance and operation
    a. LAdequate parking and restroom facilities
    b. LBuffer from residential areas to the east and west
    c. LMaintenance facilities and service roads
3. LCreation of multiple educational programs for under standing 
current and past ecosystems of a river bottom biome supporting rich and 
diverse plant and animal life
    a. LA climate controlled pavilion over the on-going excavation 
site, which contains interpretive exhibits on the process of 
paleontological research, restrooms, gift shop, and tours by trained 
docents.
    b. LFacilities for summer day camps and mini conferences
    c. LYouth and family paleontology ``dig'' area
4. LProvide a continuous green corridor through the fastest growing 
area of Waco with open space remaining to meet future family 
recreation, entertainment, and educational needs of Waco citizens as 
defined by the Waco Parks Plan.
    a. LBird attracting habitat and viewing stations
    b. LNative plant display gardens
    c. LTall and short grass prairie restoration project
SUMMARY
    1978 Waco Mammoth Site discovered by Paul Barron and Eddie Bufkin
    1978-1981 LWaco Mammoth Site excavations led by David Lintz and 
George Naryshkin unearthed five Mammuthus columbi in a thanatocose 
assemblage and were reported on by Naryshkin in a senior geology thesis 
entitled, ``The Significance of the Waco Mammoth Site to Central Texas 
Pleistocene History''
    1984 LFebruary: Calvin Smith, Director of the Strecker Museum finds 
portions of three additional mammoths eroding from the bank of the 
small draw in the immediate vicinity of the original discoveries
    LMarch: First grant received from the Cooper Foundation of Waco to 
continue excavations
    LMay: Datum and 1-meter squares established, and all of the matrix 
sifted trough 1/4 inch and window screens. No artifacts, gnaw marks or 
cut marks found associated with the bone
    LJuly: Announcement to the media that eleven specimens had been 
found and an educational exhibit prepared for use at the local Heart of 
Texas Fair, Richland Mall, etc.
    LOct: A 5 1/2 inch rain inundates the site with some dislocation of 
bone material (most of which was recovered) exposing additional 
specimens including a 45 year old female with her tusks under a 
juvenile in an attempt to extricate it from the mire
    LNov: A second grant is received from the Cooper Foundation that 
allows the museum to construct a diversion dam around the site, put up 
a tent over the exposed bone and hire Ralph Vinson as the chief 
excavator
    LDec: A total of 15 mammoths are evident making the site the 
largest concentration of a single herd of prehistoric proboscideans 
dying from the same causative event known to science
    1985 LC-14 analysis dating by Dr. Herbert Haas of Southern 
Methodist University produces a date of 28670 +/- 720 BP
    1987 LBaylor University, The Cooper Foundation and the Strecker 
Museum host the Symposium ``Mammoths, Mastodons and Human Interaction'' 
in conjunction with the annual meeting of the Texas Archaeological 
Society. Over 500 attend prompting the gathering to be called the 
``Woodstock of Proboscidean Research''
    1990 LThe remaining excavated specimens are field jacketed and 
relocated to storage with the help of numerous volunteers and a grant 
of $16,975 from the Cooper Foundation and continuing inkind 
contributions of equipment and operators by F. M. Young of Waco
    1991 LThe Sixteenth mammoth is excavated in direct association with 
the sixth individual found indicating protective/rescue behavior
    LA trench is begun above the 45-year-old female attempting to save 
the juvenile in an effort to determine an escape route and 
stratigraphic sequences running into the bone concentration
    1992 LProceedings of the Symposium are published as Proboscidean 
and Paleo-Indian Interactions, by the Markham Press Fund of Baylor 
University Press
    1990-1994 LNumbers seventeen, eighteen, nineteen, twenty, twenty-
one, twenty two and camel are excavated including the only bull in the 
herd who also had a juvenile on top of his right tusk making it the 
only such occurrence of its kind ever recorded
    LDuring this period three grants totaling $34,775 from the Cooper 
Foundation were received for tents, supplies, limited salaries and 
preservation materials
    LBetween April 1 and June 3 of 1994 the bull and juvenile were cast 
in situ by Joe Taylor of Mt. Blanco Fossil Casing Co. from Crosbyton, 
Texas which involved forty-five separate sections and became the 
largest field cast ever made
    LThe Cooper Foundation provided an additional $14,300 for the 
necessary materials and labor to create the cast
    1995 LDr. Gary Haynes returns to the site to age the bull (55), 
juvenile (13) and to identify number twenty, the smallest/youngest 
member of the group, a malnourished, diminutive 3 1/2 year old lending 
further credence to the herd being under sever environmental stress
    1996 LDepartment of Geology at Baylor University conducts Ground 
Penetrating Radar and Magnetometer surveys and a Geology/Museum Studies 
major drills test holes to determine the exact location of the bone 
concentrations on the third terrace above the current Bosque River 
stream bed. The sixth and final boring reveals another mammoth (number 
twenty-four) at the same depth and seventy feet from number twenty-
three. This most recent discovery assures years more of actual 
excavations are required to fully explore and understand the extent and 
scientific importance of the site
    1999 LThe first Development Plan for the proposed ``Park'' was 
produced for study and evaluation by all interested parties
    2000 LA follow-up, reduced, revised, plan is published resulting in 
support from several donors to protect the site from future 
encroachment
    LThe 55 acres connecting the site with the Bosque River is 
purchased with gifts from Mr. & Mrs. Buddy Bostick, Don and Pam Moes 
and Mike Bradle
    2001 LThe 50 acres leading up to Steinbeck Bend Road (the Airport 
Highway) is purchased after additional gifts from the same donors as 
the cost is reduced by Mrs. McGlasson
                                 ______
                                 
    [Attachments to Mr. Smith's statement follow:]
    [GRAPHIC] [TIFF OMITTED] T5529.005
    
    [GRAPHIC] [TIFF OMITTED] T5529.006
    
    [GRAPHIC] [TIFF OMITTED] T5529.007
    
    Mr. Radanovich. All right. Thank you, Mr. Smith. I 
appreciate your testimony. It is very, very interesting.
    Can you tell me, I am sure not all archaeological sites are 
considered for entry into the National Park System. In your 
view--and it seems to me that, you know, you want to be able to 
study and sometimes keeping people out would be preferable to 
keeping them in. What is the idea behind making it a monument 
or a national park?
    Mr. Smith. Because of its uniqueness. I think that the 
opportunity to use this as an educational facility, at all 
levels, from the young students who would come through all the 
way from Dallas-Fort Worth to Houston, plus the opportunity to 
have researchers able to come in and work on the site while the 
visitors are there. This is an opportunity for everyone to 
learn more about archaeological and paleontological techniques 
and methods and appreciate the discovery, that in case they 
find something, that they would then bring it to the attention 
of professionals and not try to do it themselves.
    Mr. Radanovich. I see. And I noticed a map here that showed 
quite a few different archaeological sites, at least in Texas, 
in the State of Texas, notwithstanding the rest of the country.
    Mr. Smith. Right.
    Mr. Radanovich. And in your view, this is one of the major 
ones?
    Mr. Smith. Absolutely. And, again, from the standpoint of--
we have looked for humans the last 18 years and haven't found 
them. This was unique in that way as well, because we can now 
compare the assemblage with those sites that do have human 
involvement and see--even if we don't know, we can help 
determine differences in analysis relating to the different 
types of sites.
    Mr. Radanovich. I see. Dr. Soukup, and I realize that we 
are looking at a bill that would authorize a study. But do you 
care to comment on what you think this--whether you think it is 
worthy for the National Park Service designation? You know, 
this is not a typical unit, although it may very well be--it 
looks to me like it would qualify. But you have got--how would 
you--you know, part of the charter of the National Park Service 
is for visitation and such. Do you see problems there that 
might be--you know, to protect, I guess, the resources against 
some of the people that would really deserve to see it?
    Mr. Soukup. Mr. Chairman, I don't think that would be a 
problem. We are trying to develop the idea that parks are in a 
sense living laboratories and inviting a lot of scientific 
effort in parks to understand how they work. And the public is 
very interested in how we know what we know about national 
parks and how much we know about how they actually work and how 
we are going to protect them for the future. So I don't see 
that as a problem.
    We would have a very diverse team look at this. A lot of 
professional societies would be approached, and we have, you 
know, archaeological teams within the National Park Service, 
and they would look at that whole spectrum of significance and 
suitability as well as feasibility. Can you protect the site 
and still accommodate visitors? But I don't think the access of 
visitors would be a problem, and it might be a great 
opportunity.
    Mr. Radanovich. I see. Well, I want to thank you, everyone, 
for the testimony on these two bills, and it does, I think, 
bring us to the close of the hearing, unless I need to say 
anything in particular.
    Ms. Riedesel, I am looking forward to all those gifts, and 
I appreciate--
    [Laughter.]
    Ms. Riedesel. I was just going to ask, I will leave them 
all behind.
    Mr. Radanovich. We will make sure they get distributed as 
well.
    Ms. Riedesel. Thank you.
    Mr. Radanovich. With that, this hearing is adjourned, and, 
again, thank you very much.
    [Whereupon, at 10:45 a.m., the Subcommittee was adjourned.]

                                   - 

</pre></body></html>
